National Aeronautics and Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                                January 5, 2010

TO:            American Recovery and Reinvestment Act Senior Accountable Official
               Recovery Act Implementation Executive

FROM:          Acting Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on Analysis of NASA’s Final Program-Specific Recovery
               Act Plans (Report No. IG-10-005; Assignment No. A-09-009-04)

       The American Recovery and Reinvestment Act (Recovery Act) requires Federal Offices
of Inspector General (OIGs) to assess their agency’s compliance with Recovery Act mandates
and with the Office of Management and Budget’s (OMB) April 3, 2009, “Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009” (OMB Guidance).

        The NASA OIG conducted a review of NASA’s program-specific plans for the Agency’s
Recovery Act-related projects and activities. Program-specific Recovery Act plans are intended
to provide detailed summaries of projects and programs funded under the Recovery Act.
Program plans are required to specify the objectives of the projects as well as the benefits of
these projects to the public. NASA submitted five program plans to OMB for review on May 15,
2009, and OMB accepted the program plans as submitted. On the basis of Recovery Act
requirements for agency reporting and OIG oversight, we analyzed the five program plans to
assess compliance with OMB’s Guidance.

Executive Summary
        During our initial review of the five program plans, we found that each had a number of
minor compliance issues when compared to the OMB Guidance. Specifically, none of the five
program plans included a description of periodic reviews of planned Recovery Act-related
activities in the Monitoring and Evaluation section. In addition, one program plan did not
identify projects and activities funded under the Recovery Act and did not address the section on
Federal Infrastructure Investments.

       We discussed the issues with NASA’s Recovery Act Implementation Executive, who
provided reasonable explanations for these issues. The discrepancies we noted between the
OMB Guidance and the NASA Program Plans were either the result of alternate formatting of
information mutually agreed upon by NASA and OMB or of NASA not providing all required
information while awaiting Congressional concurrence with the Agency’s fiscal year (FY) 2009
Operating Plan. Based on the information provided, we concluded that each of the plans
adequately addressed the requirements of the OMB Guidance.
                                                                                                  2


       We issued the draft memorandum on December 17, 2009. In NASA’s response,
received January 5, 2010, the Recovery Act Implementation Executive stated the Agency
concurred with the observations noted in this memorandum.

Background
        OMB’s Guidance outlines requirements and critical steps agencies must take to meet the
transparency and accountability provisions mandated by the Recovery Act, particularly with
regard to reporting spending and performance data for projects and programs funded under the
Recovery Act. The OMB Guidance requires that an agency’s program-specific plans identify
how funds will be applied and managed; describe in detail the objectives, activities,
characteristics, and delivery schedules for each project; and include information about how the
agency will monitor the projects and evaluate performance.

       The required data to be included in each program-specific plan, as outlined in the OMB
guidance, are grouped into eight categories:

   1. Objectives – what the program is intended to accomplish and its public benefits,
   2. Projects and Activities – description of projects and activities and the associated funding,
   3. Characteristics – types of Federal assistance and funding beneficiaries,
   4. Major Planned Program Milestones – description of work schedules and milestones for
      the programs and projects,
   5. Monitoring and Evaluation – the process by which the Agency will identify and mitigate
      challenges and risks,
   6. Measures – how progress and accomplishments will be measured, particularly with
      reference to Program Assessment Rating Tool (PART) performance measures,
   7. Transparency and Accountability – how program costs and performance information are
      organized, and
   8. Federal Infrastructure Investments – process to ensure compliance with energy efficiency
      and green building requirements.

       NASA submitted its five program-specific plans to OMB on May 15, 2009. Five NASA
mission areas are receiving Recovery Act funds: Astrophysics, Earth Science, Aeronautics,
Exploration, and Cross-Agency Support.

Initial OIG Review of NASA’s Program Plans
        NASA developed a Program Plan for each mission area with Recovery Act-related
projects. The OIG evaluated each of the program plans to assess whether they fulfilled the
requirements of the OMB Guidance. During our initial review of the Program Plans, we
identified several compliance issues and discussed these issues with NASA’s Recovery Act
Implementation Executive. According to the Implementation Executive, once further guidance
is received from OMB, the Agency will revise its Program-Specific Recovery Act Plans. The
                                                                                                          3


OIG will review the changes at that time to ensure the issues noted in our initial review have
been adequately addressed.

        The table below summarizes the issues and identifies the Program Plan or Plans to which
each issue applies. The table also includes the resolution of each issue as reported by the
Implementation Executive.

       Table 1: Compliance Issues Noted in NASA’s Program-Specific Recovery Act Plans
  Program      Reporting      Compliance                             Resolution
   Plan(s)      Element         Issue
 Earth        Projects and   The Program       The projects were not listed in the Program Plans
 Science      Activities     Plan did not      because NASA’s FY 2009 Operating Plan had not
 Recovery                    identify or       received Congressional concurrence and until this
 Plan                        provide details   occurred, NASA could not include specific project
                             about projects    information in the Program Plans. Once the Operating
                             and activities    Plan received Congressional concurrence, NASA
                             funded under      began making specific changes to the Program Plans to
                             the Recovery      resolve any conflicts and will resubmit the Program
                             Act.              Plan for Earth Science to OMB. NASA also intends to
                                               update the other Recovery Act Program Plans as
                                               appropriate. Once the updates are complete and have
                                               been submitted, the OIG will review the updated
                                               Program Plans.

 Earth        Federal        This element      NASA included a boilerplate Federal Infrastructure
 Science      Infrastructure was not           Investments paragraph in all five Program Plans;
 Recovery     Investments    addressed in      however, the draft version of the Program Plan for
 Plan                        the Earth         Earth Science did not contain any projects or activities
                             Science           that would require additional information specific to
                             Recovery          Federal infrastructure investments. OMB indicated
                             Plan.             that unless Recovery Act funds were spent on Federal
                                               infrastructure investments, this information was
                                               unnecessary; therefore, it was omitted from the final
                                               version of the Program Plan. If NASA later decides to
                                               spend Recovery Act money on Federal infrastructure
                                               investments for Earth Science projects, this section
                                               will be updated and resubmitted to OMB at that time.
                                                                                                        4




       Table 1: Compliance Issues Noted in NASA’s Program-Specific Recovery Act Plans
                                         (continues)
 Program      Reporting     Compliance                             Resolution
  Plan(s)      Element        Issue
                                             A brief summary of the planned periodic reviews was
 All Five    Monitoring    A detailed
                                             included in the Monitoring and Evaluation section of
 Program     and           description of
                                             each of the five Program-Specific Plans. However,
 Plans       Evaluation    planned
                                             because of the 4,000-character limit for this section, a
                           periodic
                                             detailed description of the periodic reviews could not
                           reviews was
                           not included      be provided. As a result, the Recovery Act
                           in this section   Implementation Executive included a more detailed
                           of the program    description of the periodic reviews under the
                           plans.            Transparency and Accountability section where she
                                             felt it was more accurately reflected. OMB accepted
                                             this divergence from the template.


        On the basis of our discussions with NASA officials and OMB’s acceptance of the five
Program Plans, we concluded that the Agency adequately complied with the OMB Guidance.
We also noted that after receiving approval from OMB, NASA’s Program Plans were uploaded
to Recovery.gov and also posted to NASA’s Recovery Act Web site, as required by the OMB
Guidance. Since receiving Congressional concurrence on the FY 2009 Operating Plan, NASA
is taking the appropriate steps to update the Program Plans with the project and activity
information that was missing in the version submitted to OMB.

        During our review, Congress concurred with NASA’s FY 2009 Operating Plan.
Accordingly, changes to the program plans are being made to address changes in funding
allocation for Recovery Act activities. The OIG will review revisions to the Program Plans to
ensure that they adequately address the identified compliance issues and comply with Recovery
Act and OMB Guidance.

       We issued the draft memorandum on December 17, 2009. In NASA’s response, received
January 5, 2010, the Recovery Act Implementation Executive stated the Agency concurred with
the observations noted in this memorandum. The response also noted that, “OMB has informed
the Agency that the Recovery Accountability & Transparency Board (RATB) is currently
responsible for Recovery.gov, and providing any opportunities for updating the Agency-wide
and Program Plans posted there. We have been informed that the RATB intends to provide this
opportunity early this calendar year.”
                                                                                               5


       We appreciate the courtesies extended during our review. If you have any questions or
need additional information, please contact Ms. Laura B. Nicolosi, Director, at 202-358-2562, or
Mr. John Apker, Project Manager, at 202-358-2978, of the Office of Audits, Institutional
Management and Recovery Act Activities Directorate.

      /s/
Debra D. Pettitt

cc:

NASA General Counsel
                               Scope and Methodology

We performed this review from May 2009 through November 2009. This review was not an
audit conducted in accordance with government auditing standards. We limited our scope to
reviewing NASA’s five Recovery Act Program-Specific Plans as submitted to OMB on May 15,
2009, to assess their compliance with the Recovery Act requirements for Federal agency
program plans as outlined in OMB’s April 3, 2009, “Updated Implementing Guidance for the
American Recovery and Reinvestment Act of 2009.” We did not use computer-processed data to
perform this review and there was no prior OIG audit coverage of this issue.
